                               CLOSEOUT FOR M90030017
                                                                           in science against=
                                                               Department a                  t the
University


difficultyproducing data, with acceptable replicate variabilities, that were required for a meeting
presentation. With what the complainant felt were insignificant changes to a standard
experimental protocol the graduate student, the second subject, had eventually produced data
with acceptable variabilities. The complainant suspected that the data were fabricated and
brought this to the attention of the first subject. At the first subject's direction the complainant
tested the protocol changes and was unable to obtain data with acceptable variabilities. The
complainant informed the fust subject of his negative results. The complainant alleged that the
fust subject presented the graduate student's allegedly fabricated data at the meeting even though
the subject was aware that they might have been fabricated. The complainant told OIG that the
data might have been p                          to provided copies of, or references to, publications
containing the data. In                     , the complainant provided OIG with a copy of a paper
resulting from the meeting which contained the allegedly fabricated data and a reference to
another paper submitted to a refereed journal that he suspected contained the fabricated data.

        OIG reviewed the fust subject's NSF grants and relevant publications but could not frnd
another instance where these data were published. OIG unsucce~sfullyattempted to con ct the
graduate student, who had moved several times since receiving her degree. IA                t he
complainant provided OIG with a reference to a journal article stating that the allegedly
fabricated data were in that article's ~ i g u r e m

        At the first subject's institution's request OIG deferred the inquiry and any investigation
into the allegations of data fabrication and the knowing presentation and publication of fabricated
data to the institution. The inquiry committee formed by the institution-attempted to review the
fust subject's laboratory notebooks containing the primary data and found that the sub'
permitted the graduate student to depart with the notebooks and he no longer had    d h a d
his meeting presentation. The first subject told the committee that the procedure developed by
the graduaie-student was still in use in the laboratory and provided the committee with ex-mples
of recent data showing acceptable variabilities between replicates. The first subject said that
independent laboratories sent samples to his laboratory for analysis and they found the resultant
data acceptable. The subject said that the data in ~ i ~ u r e a enotr ethe graduate student's. He
explained that, after the student's departure, the paper had been declined by the journal several
times. During the extended revision process he substituted a more contemporary set of data
developed by another individual in his laboratory for the graduate student's data. The committee
concluded that the data in the meeting publication and in the refereed journal were not related.
The committee informed OIG that it could not review the primary data and therefore no
substance could be found for the allegations. The institution informed OIG that it did not have
a formal policy requiring the retention of laboratory notebooks.

                                            Page 1 of 2
       At OIG's suggestion the committee interviewed many of the first subject's former
laboratory personnel and determined that it was the subject's standard policy, and his
understanding of common practice, to permit individuals to leave with the primary data and their
notebooks. The absence of the graduate student's notebooks was not selective; it was consistent
with the fnst subject's standard policy.

        OIG located the graduate student and obtained copies of a diskette containing some of the
data in a spreadsheet program and her papers and abstracts. She had discarded her laboratory
notebooks during her relocatigns. She stated that she had not fabricated or falsified data in any
of her work including that supported by NSF. After evaluating the data in the spreadsheet the
committee concluded that this partial set of data appeared genuine and it reinforced their earlier
conclusion, that despite an inability to review the primary data and notebooks, no evidence could
be found to support the allegation.

        Separate from the inquiry into the allegation, but as a result of the information provided
by the committee; OIG suggested that the institution consider the need for a formal policy on
retention of laboratory notebooks. The institution has decided that it would be appropriate to
develop such a policy and is in the process of doing so.

        After extensive searching by the committee and OIG it is apparent that the primary data
and notebooks related to this allegation cannot be located. OIG has reviewed the material
provided by the inquiry committee and concluded that they constitute a complete, thorough, and
accurate report. No evidence can be found to substantiate the allegations and, therefore, this
case is closed.




                                             4047
                                           Page 2 of 2
